                                                                   Issue Date
                                                                            February 13, 2007
                                                                   Audit Report Number
                                                                            2007-CH-1003




TO:         Thomas Marshall, Director of Public Housing Hub, 5DPH


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Housing Authority of the City of Evansville, Indiana, Needs to Improve Its
           Section 8 Housing Choice Voucher Program Administration

                                       HIGHLIGHTS

 What We Audited and Why

              We audited the Housing Authority of the City of Evansville’s (Authority) Section 8
              Housing Choice Voucher program (program). The audit was part of the activities in
              our fiscal year 2006 annual audit plan. We selected the Authority based upon our
              analysis of risk factors relating to the housing agencies in Region Vs jurisdiction.
              Our objective was to determine whether the Authority administered its program in
              accordance with the U.S. Department of Housing and Urban Development’s (HUD)
              requirements.

 What We Found

              The Authority’s program administration regarding housing unit conditions,
              documentation to support tenant eligibility, the effectiveness of its abatement and
              reinspection processes, and dependents being claimed by multiple households under
              both its Section 8 and public housing programs needs improvement. Of the 63
              housing units statistically selected for inspection, 48 did not meet HUD’s housing
              quality standards, and 44 had 230 violations that existed at the time of the Authority’s
              previous inspections. The 44 units had between 1 and 18 preexisting violations per
              unit. Based on our statistical sample, we estimate that over the next year, the
              Authority will pay more than $1.5 million in housing assistance payments on units
              with housing quality standards violations.
           The Authority needs to improve controls over its admissions and recertification
           processes. Of the 68 household files statistically selected for review, 20 did not
           contain the proper documentation to support the Authority’s payment of housing
           assistance and utility allowances as required by HUD and the Authority’s program
           administrative plan.

           The Authority did not comply with its abatement and reinspection processes. It did
           not abate 5 of the 25 program units that failed an annual housing quality standards
           inspection and reinspection(s) between January and June 2006. Additionally, it did
           not ensure that 138 of the 320 unit reinspections were performed in a timely manner.
           The Authority also needs to improve its controls over dependents being claimed by
           more than one household. It allowed four household members to be claimed as
           household dependents under both its Section 8 and public housing programs.

           We informed the Authority’s executive director and the director of HUD’s Cleveland
           Office of Public Housing of minor deficiencies through a memorandum, dated
           January 30, 2007.

What We Recommend

           We recommend that the director of HUD’s Cleveland Office of Public Housing
           require the Authority to reimburse its program from nonfederal funds for the
           improper use of program funds, provide support or reimburse its program from
           nonfederal funds for the unsupported housing assistance and utility allowance
           payments and related administrative fees, and implement adequate procedures and
           controls to address the findings cited in this audit report. These procedures and
           controls should help ensure that more than $1.5 million in program funds is spent on
           payments that meet HUD’s requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3. Please
           furnish us copies of any correspondence or directives issued because of the audit.

Auditee’s Response

           We provided our discussion draft audit report to the Authority’s executive director, its
           board chairman, and HUD’s staff during the audit. We held an exit conference with
           the executive director on January 19, 2007.

           We asked the executive director to provide comments on our discussion draft audit
           report by January 31, 2007. The executive director provided written comments, dated
           January 30, 2007. The executive director generally agreed with our
           recommendations. The complete text of the auditee’s response, along with our
           evaluation of that response, can be found in appendix B of this report except for four



                                              2
exhibits that included 517 pages of documentation that was not necessary for
understanding the Authority’s comments. A complete copy of the Authority’s
comments plus the four exhibits of documentation was provided to the coordinator of
HUD’s Indianapolis Public Housing Program Center.




                                  3
                                TABLE OF CONTENTS


Background and Objective                                                              5

Results of Audit

        Finding 1: Housing Quality Standards Were Not Adequately Enforced             6

        Finding 2: The Authority’s Controls over Its Admission and Recertification
                   Processes Were Inadequate                                          13

        Finding 3: The Authority Did Not Comply with Its Polices and Procedures for
                   Abatements and Reinspections                                       16

        Finding 4: The Authority’s Controls over Household Members Claimed under
                   Both Its Section 8 and Public Housing Programs Were Inadequate     19

Scope and Methodology                                                                 21

Internal Controls                                                                     23

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use                25
   B.   Auditee Comments and OIG’s Evaluation                                         26
   C.   Federal Requirements                                                          35
   D.   Units with Preexisting Violations                                             36
   E.   Household Files with Missing and/or Untimely Documentation                    38




                                                 4
                        BACKGROUND AND OBJECTIVE

The Housing Authority of the City of Evansville (Authority), located in Evansville, Indiana, in
Vanderburgh County, was established in 1942 under the acts of the General Assembly of Indiana of
1937. The Authority is organized to engage in the acquisition, development, leasing, and
administration of a low-rent housing program and other federally assisted programs. It is governed
by a seven-member board of commissioners appointed by the city’s mayor to four-year staggered terms.
The board of commissioners’ responsibilities includes overseeing the operations of the Authority, as
well as the review and approval of its policies. The Authority’s board of commissioners appoints the
executive director, who is responsible for coordinating established policy and carrying out the
Authority’s day-to-day operations.

The Authority administers a Section 8 Housing Choice Voucher program (program) funded by the
U.S. Department of Housing and Urban Development (HUD). The Authority provides assistance to
low-and moderate-income individuals seeking decent, safe, and sanitary housing by subsidizing
rents with owners of existing private housing. As of December 20, 2006, the Authority had 1,906
units under contract with annual housing assistance payments totaling more than $8.2 million in
program funds.

Our objective was to determine whether the Authority administered its program in accordance with
HUD’s requirements. This included determining whether (1) the Authority’s inspections were
sufficient to detect housing quality standards violations and provide decent, safe, and sanitary
housing to its residents; (2) the Authority complied with HUD requirements by obtaining the
necessary documentation to determine household eligibility; (3) the Authority complied with its
abatement and reinspection procedures; and (4) the Authority allowed household members to receive
subsidies under both its Section 8 and public housing programs.




                                                 5
                                  RESULTS OF AUDIT

Finding 1: Housing Quality Standards Were Not Adequately Enforced
The Authority did not adequately enforce HUD’s housing quality standards. Of the 63 program
units statistically selected for inspection, 48 did not meet HUD’s minimum housing quality
standards, and 44 had violations that existed before the Authority’s previous inspections. The
violations existed because the Authority lacked adequate procedures and controls to ensure that its
program units met HUD’s housing quality standards. As a result, more than $55,000 in program
funds was spent on units that were not decent, safe, and sanitary. We estimate that over the next
year, the Authority will pay more than $1.5 million in housing assistance payments on units with
housing quality standards violations.


 HUD’s Housing Quality
 Standards Not Met

               From the 892 program units that passed the Authority’s inspections between January
               and June 2006, we statistically selected 63 units for inspection by using the U.S.
               Army Audit Agency’s Statistical Sampling System software. The 63 units were
               inspected to determine whether the Authority ensured that its program units met
               HUD’s housing quality standards. Our appraiser inspected the 63 units between
               August 21 and August 31, 2006.

               Of the 63 units, 48 (76 percent) had 397 housing quality standards violations. In
               addition, 44 units had 230 violations that existed before the Authority’s previous
               inspections, and 28 units were considered to be in material noncompliance since they
               had exigent health and safety violations that predated the Authority’s previous
               inspections. The following table categorizes the 397 housing quality standards
               violations in the 48 units.




                                                  6
                                                                    Number of
                              Category of violations                violations
                        Electrical                                      86
                        Windows                                         57
                        Security                                        48
                        Interior walls                                  39
                        Lead-based paint                                27
                        Floor                                           20
                        Ceiling                                         17
                        Range/refrigerator                              16
                        Exterior surfaces                               11
                        Roof                                            10
                        Smoke detectors                                 9
                        Safety of heating equipment                     7
                        Ventilation                                     6
                        Sewer connection                                5
                        Access to unit                                  4
                        Exterior stairs                                 4
                        Flush toilet in enclosed room                   4
                        Foundation                                      4
                        Infestation                                     3
                        Sink                                            3
                        Space for storage and preparation of food       3
                        Water heater                                    3
                        Condition of chimney                            2
                        Fixed wash basin or lavatory                    2
                        Other potential hazardous features              2
                        Site and neighborhood                           2
                        Garbage and debris                              1
                        Interior air quality                            1
                        Tub/shower                                      1
                                            Total                      397

             We provided our inspection results to the director of HUD’s Cleveland Office of
             Public Housing and the Authority’s executive director on October 4, 2006.

Electrical Violations

             Eighty-six electrical violations were present in 38 of the Authority’s units inspected.
             The following items are examples of electrical violations listed in the table: outlets
             with open grounds, light fixtures hanging from wires, no cover on junction box,
             ground fault circuit interrupters that do not trip, holes and gaps in the breaker box,
             and exposed contacts. The following picture is an example of an electrical-related
             violation identified.




                                                    7
Unit #60: Cover
plate missing on an
outlet in bedroom,
exposing contacts.




 Window Violations

                 Fifty-seven window violations were present in 23 of the Authority’s program units
                 inspected. The following items are examples of window violations listed in the table:
                 windows that do not open or stay up properly, screens that are torn or have holes, and
                 cracked window panes. The following pictures are examples of the window
                 violations identified.

Unit #18: Broken glass
pane on a bedroom
window.




                                                    8
Unit #33: Broken glass
pane on the basement
window.




 Security Violations

                 Forty-eight security violations were present in 28 of the Authority’s program units
                 inspected. The following items are examples of security violations listed in the table:
                 broken latches on exterior doors, damaged storm doors, closet doors that are off their
                 tracks, doors that do not close tightly, and doors with broken hinges. The following
                 pictures are examples of security violations identified.

Unit #35: Broken/missing
latch on front storm door.




                                                    9
Unit #19: Broken hinge
and a loose bedroom
door.




 Causes for Violations

                The housing quality standards violations existed because the Authority lacked
                adequate procedures and controls to ensure that its program units met HUD’s housing
                quality standards. The Authority also failed to exercise proper supervision and
                oversight of its program inspections. While observing the Authority’s inspections,
                we noticed the Authority’s inspectors asking the households if anything was wrong in
                their units or if items did not work, rather than inspecting the units themselves. We
                also observed housing quality standards violations in the units that the inspectors did
                not include in their inspection reports, such as missing handles on refrigerator doors,
                missing handrail on basement stairs, and missing screens in windows.

                Additionally, the Authority’s inspectors did not properly test the program units’
                ground fault circuit interrupter outlets to determine whether they were operating
                correctly. The inspectors relied on pushing the test button on the ground fault circuit
                interrupter to determine whether the outlet was operating correctly, instead of using
                outlet testing devices to properly test them. Pushing the test button does not always
                indicate that the ground fault circuit interrupter is wired correctly and operating as
                intended. According to page 104 of the Authority’s program administrative plan, if
                there is an electrical outlet within six feet of running water, the outlet must be
                protected by a ground fault circuit interrupter. The Authority lacked assurance that
                the ground fault circuit interrupters were operating correctly.

                Further, the Authority did not follow its program administrative plan for the quality
                control inspection process. The plan requires supervisory quality control inspections
                on 5 percent of the total number of units under contract during the Authority’s
                previous fiscal year. Although the director of leased housing stated that she


                                                   10
             performed quality control inspections on 5 percent of the units inspected by each of
             the Authority’s inspectors, the results were not documented. According to the
             Authority’s program administrative plan and HUD’s requirements as discussed in 24
             CFR [Code of Federal Regulations] 982.405(b), the Authority is required to conduct
             supervisory quality control housing quality standards inspections. Without
             documentation of the quality control inspections, HUD lacks assurance that the
             Authority performed the required inspections.

HUD Funds Not Effectively
Used

             The Authority did not effectively use program funds when it failed to fully enforce
             HUD’s housing quality standards. Our appraiser identified 44 units with housing
             quality standards violations that existed at the time of the Authority’s previous
             inspections. However, the Authority’s inspectors passed the 44 units. Our appraiser
             noted these preexisting housing quality standards violations on the applicable
             inspection reports that we provided to the Authority and HUD. As previously
             mentioned, 28 of the 44 units were considered to be in material noncompliance since
             they had exigent health and safety violations that predated the Authority’s previous
             inspections.

             The table in appendix D of this report lists the 28 units and the period after the
             Authority’s previous inspections (beginning after 30 days from the time of the failure)
             that the units did not meet HUD’s housing quality standards. The Authority
             disbursed $49,517 in program housing assistance payments for the 28 units that
             materially failed to meet HUD’s housing quality standards and received $5,663 in
             program administrative fees.

Conclusion

             The Authority’s households were subjected to health- and safety-related violations and
             the Authority did not properly use its program funds when it failed to ensure that the
             units met HUD’s housing quality standards. In accordance with 24 CFR [Code of
             Federal Regulations] 982.152(d), HUD is permitted to reduce or offset any program
             administrative fees paid to a public housing authority if it fails to enforce HUD’s
             housing quality standards. The Authority disbursed $49,517 in program housing
             assistance payments for the 28 units that materially failed to meet HUD’s housing
             quality standards and received $5,663 in program administrative fees.

             If the Authority implements adequate procedures and controls over its unit inspections to
             ensure compliance with HUD’s housing quality standards, we estimate that more than
             $1.5 million in future housing assistance payments will be spent for units that are
             decent, safe, and sanitary. We determined this amount by multiplying 357 units
             (estimate that would be in material noncompliance with housing quality standards if



                                                11
          appropriate actions are not taken by the Authority) times $368 (average monthly subsidy
          of each housing unit). This amount was then annualized to give the total estimate.

Recommendations

        We recommend that the director of HUD’s Cleveland Office of Public Housing require
        the Authority to

          1A.     Certify, along with the owners of the 28 program units cited in this finding,
                  that the applicable housing quality standards violations have been repaired.

          1B.     Reimburse its program $55,180 from nonfederal funds ($49,517 for housing
                  assistance payments and $5,663 in associated administrative fees) for the 28
                  units that materially failed to meet HUD’s housing quality standards.

          1C.     Implement adequate procedures and controls to ensure that all units meet
                  HUD’s housing quality standards to prevent $1,576,512 in program funds
                  from being spent over the next year on units that are in material
                  noncompliance with the standards.

          1D.     Perform routine quality control inspections in accordance with established
                  procedures and document the inspections and feedback provided to inspectors
                  to correct recurring inspection deficiencies noted.




                                             12
Finding 2: The Authority’s Controls over Its Admission and
               Recertification Processes Were Inadequate
The Authority’s controls over program households’ admission and recertification processes need
improvement. Of the 68 households’ files statistically selected for review, the Authority did not
maintain adequate supporting documentation to determine program eligibility for 20 households. It
also did not always perform timely annual inspections or household reexaminations. This occurred
because it lacked adequate procedures and controls to ensure that HUD’s regulations were followed.
As a result, the Authority was unable to support more than $14,000 in housing assistance payments
and it failed to administer its program effectively.


 Adequate Eligibility
 Documentation Lacking


              The Authority lacked documentation supporting households’ eligibility for program
              housing assistance. From the Authority’s 1,882 active program households as of May
              30, 2006, we statistically selected 68 households’ files for review using EZ Quant Dollar
              Unit Variable Statistical Sampling software. We reviewed the files to determine
              whether the Authority maintained adequate documentation to support households’
              admission to and selection for its program. Of the 68 household files reviewed, 20 (29
              percent) had the following missing or incomplete documents:

                      ¾ Eight were missing HUD Form 9886, Authorization for the Release of
                        Information and Privacy Act Notice;
                      ¾ Seven were missing birth certificate(s);
                      ¾ Five were missing citizenship declaration(s); and
                      ¾ Three were missing Social Security card(s).

              Seven of the households’ files were missing birth certificates for one or more of the
              household members, and five files did not have signed citizenship declarations.
              According to 24 CFR [Code of Federal Regulations] 982.551, the family must supply
              any information that the Authority or HUD determines is necessary in the administration
              of the program, including submission of required evidence of citizenship or eligible
              immigration status.

              Three of the households’ files did not have Social Security cards for one or more of the
              household members over the age of six, and eight of the files were missing the signed
              HUD Form 9886. According to 24 CFR [Code of Federal Regulations] 5.216, each
              applicant must submit the complete Social Security number assigned to each member of
              the household of at least six years of age. In addition, the Authority must require all
              adult applicants age 18 and older to sign HUD Form 9886, Authorization for the Release
              of Information and Privacy Act Notice.




                                                 13
Inspections and Reexamines
Not Timely


           The Authority also did not always perform timely annual inspections or tenant
           reexaminations. For four files reviewed, the annual inspection was not performed
           within 12 months of the previous inspections (range of 61 to 146 days overdue), and one
           file lacked documentation to support that the household’s reexamination was performed
           within the required 12-month period (30 days overdue). According to 24 CFR [Code of
           Federal Regulations] 982.405, the Authority must inspect the unit leased to a family at
           least annually during assisted occupancy. Further, 24 CFR [Code of Federal
           Regulations] 982.516 states that the Authority must conduct a reexamination of family
           income and composition at least annually. Appendix E contains a listing of the
           household files with missing and/or untimely documentation. As a result, the Authority
           did not administer its program effectively.

Lack of Adequate Procedures
and Controls

           The Authority lacked adequate procedures and controls to ensure HUD’s regulations
           were followed. It did not always ensure that its staff properly maintained household
           files and the files contained the required documentation. The Authority’s program
           supervisors said they conducted periodic quality control reviews of files to determine
           whether staff accurately determined households’ admission and recertification to the
           program. The Authority had documentation to support that its supervisors signed off on
           the households’ recertifications; however, there was no documentation to support any
           deficiencies noted during the quality control reviews or followup with the applicable
           staff.

HUD Funds Not Effectively
Used

           The Authority did not properly use its program funds when it failed to comply with
           HUD’s regulations. As a result, it lacked required supporting housing assistance
           documentation for 20 of the 68 households during the period January 1, 2005, through
           June 30, 3006. Further, the Authority received program administrative fees related to
           the households. According to 24 CFR [Code of Federal Regulations] 982.152(d), HUD
           may reduce or offset any administraive fee to a public housing authority, in the amount
           determined by HUD, if the public housing authority fails to perform its adminstrative
           responsibilites correctly or adequately under the program.




                                              14
Recommendations

        We recommend that the director of HUD’s Cleveland Office of Public Housing require
        the Authority to

          2A.     Provide supporting documentation or reimburse its program $15,324 ($14,397 in
                  housing assistance payments plus $927 in related administrative fees) from
                  nonfederal funds for the unsupported housing assistance payments and related
                  administrative fees for the two households cited in Appendix E of this report.

          2B.     Implement adequate procedures and controls to ensure that it maintains all
                  required documentation in program household files to support housing
                  assistance payments in accordance with HUD’s requirements.




                                            15
Finding 3: The Authority Did Not Comply with Its Polices and Procedures
                   for Abatements and Reinspections
The Authority did not follow its abatement and reinspection procedures. Of the 25 program units
that failed the Authority’s annual housing quality standards inspections and reinspections between
January and June 2006, five were not abated. Additionally, 138 of the 320 reinspections were not
performed timely. This occurred because the Authority lacked adequate procedures for abating and
reinspecting units and did not adequately monitor and provide management supervision to its
inspectors. As a result, the Authority improperly paid housing assistance payments of more than
$5,000, and households were subjected to conditions that were not decent, safe, and sanitary.


 Abatement Procedures Not
 Followed


              The Authority did not abate program units that were in noncompliance with its
              abatement procedures. According to pages 111 and 112 of the Authority’s program
              administrative plan, if a unit fails an inspection due to a housing quality standards
              violation, the owner has up to 30 days to make any major repairs. The Authority may
              grant up to an additional 30-day extension. However, if the necessary repairs are not
              completed within 60 days after the date of the initial inspection, the Authority should
              abate the housing assistance payments and cancel the owner’s contract for
              noncompliance.

              For five of the Authority’s 25 units (20 percent), the Authority did not follow its
              abatement procedures. It did not reinspect units that were granted extensions and
              then either pass the units or abate the housing assistance payments. For example, the
              Authority provided an extension for an owner to repair a kitchen cabinet. The initial
              inspection was performed on April 5, 2006, and the reinspection occurred on May 11,
              2006. However, the Authority did not reinspect the unit until July 11, 2006, 37 days
              beyond the 60-day requirement. The Authority should have inspected the unit within
              60 days of the initial inspection to determine whether the repair was completed and
              either pass the unit or place the housing assistance payments in abatement.

              The following table shows the five units that were granted extensions beyond the 60-
              day requirement.




                                                16
                                                                                              Unsupported
    Household                                              Days             Unsupported         housing
   identification    Dates failed   Date passed      noncompliant in           housing         assistance
      number          inspection     inspection      excess of 60-days   assistance periods    payments
                     Apr. 5, 2006                                         June 1-30 = $499
       9433         May 11, 2006    July 11, 2006           37            July 1-10 = $161        $660
                    Apr. 25, 2006
       2245          June 9, 2006   Aug. 2, 2006            39           July 1-31 = $507          507
                    Apr. 10, 2006                                        June 1-30 = $455
       2254         May 18, 2006    July 5, 2006            26             July 1-4 = $59          514
                    Apr. 12, 2006                                        June 1-30 = $634
       7115         May 18, 2006    Aug. 6, 2006            25            July 1-5 = $102          736
                     May 4, 2006
                    June 15, 2006
       2031         June 29, 2006   July 20, 2006           17           July 1-19 = $193          193
                                             Total                                              $2,610


Timely Reinspections Not
Performed


              The Authority did not perform timely reinspections of its program units. Of the 320
              reinspections conducted from January through June 2006, 138 (43 percent) were
              conducted more than 40 days from the date of the initial inspection. For example,
              one unit failed its initial inspection on March 9, 2006, and the subsequent
              reinspection on April 18, 2006. The owner was granted an extension, but the
              inspection was never performed because the inspection report was misplaced.
              However, the housing assistance payments continued. As of November 13, 2006, the
              unit had not passed a housing quality standards inspection.

The Authority’s Policies and
Procedures Not Followed


              The Authority did not comply with its policies and procedures as outlined in its
              program administrative plan. Additionally, it failed to provide proper supervision and
              oversight to ensure that its inspectors complied with the abatement procedures when
              granting extensions and performing timely inspections. The inspectors did not
              document the reason(s) extensions were granted or ensure that the owners made a
              good faith effort to initiate repairs in accordance with the Authority’s administrative
              plan. Further, the inspectors granted the owners multiple extensions for repairs to the
              Authority’s program units.

              The Authority implemented the Hawkins, Baptie & Company system in 2003. The
              system also contains a module that could assist the Authority with the inspection
              process; however, it has yet to be implemented as of November 2006. Currently, the
              Authority’s inspection process is tracked manually, thus increasing the risk that
              inspections will not be performed in a timely manner.


                                                      17
Program Funds Not Used
Efficiently


          The Authority improperly paid housing assistance payments of $2,610 for five units.
          The units should have been abated because they contained housing quality standards
          violations that were not corrected within the Authority’s 60-day limit. Further, the
          Authority made housing assistances payments for household number 6177, totaling
          $2,782 that was not abated because the inspection report was missing. Failure to
          correct housing quality standards violations in a timely manner, subjected the
          households to conditions that were not decent, safe, and sanitary.

Recommendations


         We recommend that the director of HUD’s Cleveland Office of Public Housing require
         the Authority to

          3A.     Provide supporting documentation or reimburse its program $5,392 ($2,610
                  for five units plus $2,782 for one unit) for housing assistance payments from
                  nonfederal funds for the six units cited in this finding.

          3B.     Implement adequate procedures and controls to follow its program
                  administrative plan for abating housing assistance payments for units that
                  were in noncompliance in excess of 60 days, inspections of its program units
                  are performed in a timely manner, and its inspectors document the reason(s)
                  for granting extensions.




                                            18
Finding 4: The Authority’s Controls over Household Members Claimed
 under Both Its Section 8 and Public Housing Programs Were Inadequate
The Authority needs to improve its controls over household members claimed as dependents under
both its Section 8 and public housing programs. It allowed four household members to be claimed
as dependents under both programs. This occurred because the Authority did not follow its controls
for admissions, and failed to exercise proper supervision and oversight of its programs’ operations to
ensure the same dependents were not claimed under both its Section 8 and public housing programs.
As a result, HUD funds were not used efficiently and effectively as households received more in
housing assistance than what they were entitled.


 Dependents Receiving Multiple
 Subsidies

               Weaknesses in the Authority’s supervisory controls for reviewing household
               information allowed four members to be claimed as household dependents under both
               its Section 8 and public housing programs. According to HUD’s regulations at 24
               CFR [Code of Federal Regulations] 982.551, the family must promptly notify the
               Authority if any family member no longer resides in the unit. Program members can
               only be claimed by one head of household and the head of household must be able to
               demonstrate that the member resided in the unit more than 50 percent of the time.

               After reviewing HUD’s Enterprise Income Verification system’s multiple subsidy
               report, we identified four out of 4,388 members being claimed as household
               dependents under both the Authority’s Section 8 and public housing programs. While
               the error rate was small, this problem could increase if the Authority fails to follow
               HUD’s regulations and its controls to eliminate the same dependent from being
               claimed by more than one household. Documentation in the Authority’s household
               files supported the applicable household entitled to claim the four dependents.

 Current Procedure for
 Checking Duplicate Dependents


               As of October 2003, the Authority’s computer system has had the ability to identify if
               a dependent was claimed by more than one household. The Authority’s public
               housing staff member bypassed the system’s controls when she neglected to
               acknowledge the error message in the system during the household admission
               process. The error message was received for the four household members.

               The following table shows the three households that inappropriately received multiple
               subsidies and the amount of excessive housing assistance payments and/or household
               rents.



                                                 19
                          Number of
                          dependents
            OIG           claimed in      Excessive
         household         multiple        housing      Undercharged
          number          households      assistance    household rent      Total
             1                 1                             $96             $96
             2                 1                             192             192
             3                 2             $222            144             366
           Totals              4             $222           $432            $654

Conclusion

             The Authority needs to improve its controls over household members being claimed
             under both its Section 8 and public housing programs. As a result of the weakness in
             its controls and lack of management supervision, the Authority paid $654 in
             excessive housing assistance and/or households paid less in rental payments for four
             household members.

Recommendations

             We recommend that the director of HUD’s Cleveland Office of Public Housing
             require the Authority to

             4A.    Reimburse the appropriate program $654 from nonfederal funds for the
                    Section 8 ($222) and public housing ($432) operating funds paid for
                    households which claimed the same four dependents.

             4B.    Implement adequate controls to ensure that its staff verifies the
                    appropriateness of claiming dependents under its Section 8 and public housing
                    programs.




                                              20
                           SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

               •   Applicable laws and regulations; the Authority’s program administrative plan for
                   2005; and HUD program requirements at 24 CFR [Code of Federal Regulations]
                   Parts 5 and 982, HUD Public and Indian Housing Notice 2005-9, and HUD’s
                   Housing Choice Voucher Guidebook 7420.10.

               •   The Authority’s accounting records, annual audited financial statements for the
                   periods ending December 31, 2003 and 2004, general ledgers, bank statements and
                   cancelled checks for January 2005 through June 2006, household files, policies and
                   procedures, board meeting minutes for January 2005 through April 2006,
                   organizational chart, and program annual contributions contract with HUD.

               •   Downloaded electronic computer data for the Authority’s program households as of
                   May 30, 2006.

               •   HUD’s reports and files relating to the Authority.

We also interviewed the Authority’s employees, HUD staff, and the Authority’s board members and
program households.

We statistically selected 63 of the Authority’s program units to inspect, using the U.S. Army Audit
Agency’s Statistical Sampling software, from the Authority’s 892 units that passed its inspections
conducted from January through June 2006. The 63 units were selected to determine whether the
Authority ensured that its program units met HUD’s housing quality standards. Our sampling
criteria used a 90 percent confidence level, 50 percent estimated error rate, and precision of plus or
minus 10 percent.

Our sampling results determined that 28 of 63 units (44 percent) materially failed to meet HUD’s
housing quality standards. This was within our 50 percent estimated error rate; thus we did not need
to adjust our sample size. Materially failed units were those units with exigent health and safety
violations that preceded the Authority’s previous inspections.

The Authority’s January through June 2006 housing assistance payment registers showed that the
average monthly housing assistance payment was $368. Using the lower limit of the estimate of the
number of units and the average housing assistance payment, we estimated that the Authority will
annually spend $1,576,512 (357 units times $368 average payment times 12 months) for units that
are in material noncompliance with HUD’s housing quality standards. This estimate is presented
solely to demonstrate the annual amount of program funds that could be put to better use on decent,
safe, and sanitary housing if the Authority implements our recommendation. While these benefits
would recur indefinitely, we were conservative in our approach and only included the initial year in
our estimate. We also considered that (1) the Authority did not identify many of the preexisting
violations during its most recent inspections, (2) the units would not be rescheduled for inspection


                                                  21
for another year under normal circumstances, and (3) it would take the Authority at least a year to
complete all inspections under an improved inspection process.

Using our lower precision limit of 40 percent (based on a 50 percent error rate and a 10 percent
precision), we applied this error rate to the population of 892 units inspected and passed by the
Authority over a six-month period. We estimate that the Authority will spend more than $1.5
million in housing assistance payments for 357 units that materially fail to meet housing quality
standards (computed as 357 units times the average annual housing assistance payment of $4,416) if
appropriate actions are not taken to correct housing quality standards violations.

From the Authority’s 1,182 active program households as of May 30, 2006, we statistically selected
68 households’ files for review using EZ Quant Dollar Unit Variable Statistical Sampling software.
We reviewed the files to determine whether the Authority maintained adequate documentation to
support households’ admission to and selection for its program. Since we used the Dollar Unit
Variable Statistical Sampling software, we were unable to project the number of the Authority’s files
lacking documentation to support households’ admission to and selection for the program.

We performed our onsite audit work from June to November 2006 at the Authority’s program office
located at 411 Southeast Eighth Street, Evansville, Indiana. The audit covered the period January 1,
2005, through June 30, 2006. This period was expanded as necessary to accomplish our objective.

We performed our audit in accordance with generally accepted government auditing standards.




                                                  22
                               INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides reasonable
assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its mission,
goals, and objectives. Internal controls include the processes and procedures for planning,
organizing, directing, and controlling program operations. They include the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objective:

              •       Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data - Policies and procedures that management has
                      implemented to reasonably ensure that valid and reliable data are obtained,
                      maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable assurance
              that the process for planning, organizing, directing, and controlling program
              operations will meet the organization’s objectives.




                                                 23
Significant Weaknesses

           Based on our review, we believe the following items are significant weaknesses:

           •      The Authority failed to exercise proper supervision and oversight of its
                  program unit inspections (see finding 1).

           •      The Authority lacked sufficient procedures and/or controls over household
                  eligibility, households receiving multiple subsidies, and its abatement process
                  (see finding 2, 3, and 4).




                                             24
                                       APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS
                AND FUNDS TO BE PUT TO BETTER USE
         Recommendation                                                   Funds to be put
             number               Ineligible 1/        Unsupported 2/     to better use 3/

                1B                  $55,180
                1C                                                          $1,576,512
                2A                                        $15,324
                3A                                          5,392
                4A                      654
               Totals               $55,834               $20,716           $1,576,512


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local policies
     or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or
     activity when we cannot determine eligibility at the time of audit. Unsupported costs require
     a decision by HUD program officials. This decision, in addition to obtaining supporting
     documentation, might involve a legal interpretation or clarification of departmental policies
     and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be used
     more efficiently if an Office of Inspector General (OIG) recommendation is implemented.
     This includes reductions in outlays, deobligation of funds, withdrawal of interest subsidy,
     costs not incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In this instance, if the Authority implements our recommendation, it will cease to
     incur program costs for units that are not decent, safe, and sanitary and, instead will expend
     those funds for units that meet HUD’s standards. Once the Authority successfully improves
     its procedures and controls, this will be a recurring benefit. Our estimate reflects only the
     initial year of this benefit.




                                                  25
Appendix B

          AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation    Auditee Comments




                            26
Ref to OIG Evaluation   Auditee Comments




Comment 1




                           27
Ref to OIG Evaluation   Auditee Comments




Comment 2




                           28
Ref to OIG Evaluation   Auditee Comments




Comment 3




                           29
Ref to OIG Evaluation   Auditee Comments




Comment 4




                           30
Ref to OIG Evaluation   Auditee Comments




                           31
Ref to OIG Evaluation   Auditee Comments




                           32
                           OIG Evaluation of Auditee Comments

Comment 1   The table in Appendix D of this report lists the 28 units that materially failed to meet
            HUD’s housing quality standards. HUD’s housing quality standards do not
            distinguish between violations related to owners or tenants. When a violation existed,
            our appraiser appropriately cited it. For the 10 units that failed because their ground
            fault circuit interrupters did not trip when tested, seven had additional preexisting
            health and safety violations. According to the Authority’s program administrative
            plan, if there is an electrical outlet within six feet of running water, the outlet must be
            protected by a ground fault circuit interrupter. In addition, if ground fault circuit
            interrupters are present in a unit, our appraiser determined if they were working
            properly.

Comment 2   For the households 1940, 2062, 2194, 2274, 2520, 2537, 2550, 2865, 3055, 3104,
            3125, 5366, 5431, and 8352, the missing documentation was provided by the
            Authority and the unsupported costs were removed from this audit report.

            For households 1938 and 4278, the applicable forms were not documented in the
            households’ files at the time of our audit and the Authority was unable to provide
            copies of the documents from the households. Although the households were
            removed from the program, the Authority and HUD lack assurance that the two
            households were eligible at the time they received housing assistance.

            For households 2117, 6179, and 7055, the forms were provided, but were completed
            with a previous date. Proof of the dates of receipt was provided by the Authority and
            the unsupported funds were removed from this audit report.

            For household identification number 3098, the Authority indicated that the birth
            certificate did not exist. However, the Authority provided a copy of the Social
            Security card. The unsupported costs were removed from this audit report.

            For household identification number 5366, the Authority provided the birth certificate
            and Social Security card in its purged household file. Therefore, the unsupported
            costs were removed from this audit report.

Comment 3   Although some documentation was provided by the Authority, the documentation
            was missing at the time of the audit, which demonstrates the Authority’s need to
            improve its procedures in obtaining and maintaining eligibility documentation in its
            household files. Until the software indicated in the Authority’s response is
            purchased, manual procedures that would ensure that the required documentation is
            obtained and maintained in the households’ files should be implemented.

            The citizenship declaration forms were not considered when determining unsupported
            costs. The Authority’s procedures require that documents be obtained and maintained
            for the assisted households. The fact that the documents were missing from the
            applicable households’ files is one indication that the Authority’s controls over the



                                                33
            admission and recertification process were inadequate. However, no unsupported
            costs were considered for these missing documents because the households’ files
            contained other documentation to support the households’ citizenships.

            Although the unsupported costs for this finding were reduced based on the supporting
            documents provided by the Authority, the finding should not be removed. The
            documents were missing at the time of the audit, which demonstrates the Authority
            must improve its controls over the admission and recertification processes.

Comment 4   We agree with the Authority’s response for household identification number 9057
            and the finding was adjusted accordingly.




                                             34
Appendix C

                              FEDERAL REQUIREMENTS

Finding 1
HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.152(d) state that HUD may reduce
or offset any administrative fee to the authority, in the amount determined by HUD, if the authority
fails to perform its administrative responsibilities correctly or adequately under the program, such as
not enforcing HUD’s housing quality standards.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.401(a)(3) state that all program
housing must meet the housing quality standards performance requirements both at commencement
of assisted occupancy and throughout the assisted tenancy.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.404 require owners of program
units to maintain the units in accordance with HUD’s housing quality standards. If the owner fails to
maintain the dwelling unit in accordance with HUD’s housing quality standards, the authority must
take prompt and vigorous action to enforce the owner’s obligations. The authority’s remedies for
such breach of the housing quality standards include termination, suspension, or reduction of
housing assistance payments and termination of the housing assistance payment contract. The
authority must not make any housing assistance payments for a dwelling unit that fails to meet the
housing quality standards unless the owner corrects the defect within the period specified by the
authority and the authority verifies the correction. If a defect is life threatening, the owner must
correct the defect within 24 hours. For other defects, the owner must correct them within 30
calendar days.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.405 state that the authority must
inspect the unit leased to a family before the initial term of the lease, at least annually during assisted
occupancy, and at other times as needed to determine whether the unit meets the housing quality
standards. The authority must conduct supervisory quality control housing quality standards
inspections.




                                                    35
Appendix D
                       UNITS WITH PREEXISTING VIOLATIONS
                                                                                  Improper
    Household        Housing                                                       housing       Improper
   identification   assistance      Last unit                                     assistance   administrative
      number        payment        inspection       From              To           payment          fee
      2264            $273       Apr. 27, 2006   June 1, 2006    Oct. 31, 2006        $1,365            $187
                      127                        June 1, 2006    June 30, 2006           127              37
      4270            153        Apr. 4, 2006    July 1, 2006    Oct. 31, 2006           612             150
                      296                        Mar. 1, 2006    Aug. 31, 2006         1,776             225
                      217                        Sept. 1, 2006   Sept. 30, 2006          217              38
      1812            296         Jan. 5, 2006   Oct. 1, 2006    Oct. 31, 2006           296              38
      9135            409        Jan. 12, 2006   Mar. 1, 2006    Oct. 31, 2006         3,272             300
      9427            443        May 18, 2006    July 1, 2006    Oct. 31, 2006         1,772             150
                      278                        July 1, 2006    July 31, 2006           278              38
      4058            297        May 12, 2006    Aug. 1, 2006    Oct. 31, 2006           891             113
                      443                        Mar. 1, 2006    Mar. 31, 2006           443              38
      5098            444        Jan. 24, 2006   Apr. 1, 2006    Oct. 31, 2006         3,108             263
                      450                        Aug. 1, 2006    Aug. 31, 2006           450              37
      1811            400        June 26, 2006   Sept. 1, 2006   Oct. 31, 2006           800              75
      8327            339        Feb. 16, 2006   Apr. 1, 2006    Oct. 31, 2006         2,373             262
      3534            292         June 9, 2006   Aug. 1, 2006    Oct. 31, 2006           876             112
                      216                        May 1, 2006     May 31, 2006            216              38
                      215                        June 1, 2006    Aug. 31, 2006           645             113
                      383                        Sept. 1, 2006   Sept. 30, 2006          383              38
      3628            299        Mar. 2, 2006    Oct. 1, 2006    Oct. 31, 2006           299              38
                      260                        Mar. 1, 2006    Apr. 30, 2006           520              75
                      267                        May 1, 2006     Aug. 31, 2006         1,068             150
                      187                        Sept. 1, 2006   Sept. 30, 2006          187              38
      4615            267        Jan. 5, 2006    Oct. 1, 2006    Oct. 31, 2006           267              38
                      247                        June 1, 2006    June 30, 2006           247              37
      4204            256        Apr. 27, 2006   July 1, 2006    Oct. 31, 2006         1,024             150
      4898            529        May 18, 2006    June 1, 2006    Oct. 31, 2006         2,116             150
                      335                        Apr. 1, 2006    June 30, 2006         1,005             112
      5064            334        Feb. 23, 2006   July 1, 2006    Oct. 31, 2006         1,336             150
      4300            204        June 29, 2006   Aug. 1, 2006    Oct. 31, 2006           612             112
      4646            319         May 9, 2006    July 1, 2006    Oct. 31, 2006         1,276             150
      6637            453        Apr. 27, 2006   June 1, 2006    Oct. 31, 2006         2,265             187
      1982             0          Feb. 8, 2006   Apr. 1, 2006    Oct. 31, 2006             0             262
                      379                        Mar. 1, 2006    Sept. 30, 2006        2,653             263
     10064            479        Jan. 18, 2006   Oct. 1, 2006    Oct. 31, 2006           479              38
                      525                        July 1, 2006    Sept. 30, 2006        1,575             113
     9479             550        May 19, 2006    Oct. 1, 2006    Oct. 31, 2006           550              38
     10568            430        May 18, 2006    July 1, 2006    Oct. 31, 2006         1,720             150
     5895              20        Mar. 16, 2006   May 1, 2006     Oct. 31, 2006           120             225
                      294                        June 1, 2006    Sept. 30, 2006        1,176             150
      2274            455        Apr. 27, 2006   Oct. 1, 2006    Oct. 31, 2006           455              37
      6509            368         Mar. 1, 2006   Apr. 1, 2006    Oct. 31, 2006         2,576             262
      9642            520        June 13, 2006   Aug. 1, 2006    Oct. 31, 2006         1,560             112




                                                       36
                 UNITS WITH PREEXISTING VIOLATIONS (continued)
                                                                                Improper
      Household       Housing                                                    housing       Improper
    identification   assistance     Last unit                                   assistance   administrative
       number        payment       inspection       From             To          payment          fee
                        490                      Apr. 1, 2006   Apr. 30, 2006         490               37
       2120             517       Feb. 8, 2006   May 1, 2006    Oct. 31, 2006       3,102              225
       5453             313       June 9, 2006   Aug. 1, 2006   Oct. 31, 2006         939              112
                                       Totals                                     $49,517           $5,663



Administrative fee amounts are rounded.




                                                       37
Appendix E
           HOUSEHOLD FILES WITH MISSING AND/OR UNTIMELY
                         DOCUMENTATION

                  Missing documents                                                         Late




                                                                      HUD Form-9886
                  Birth certificate


                                      Social Security




                                                                                      Certification
                                                        Citizenship
                                                        declaration




                                                                                                      Inspection
                                           card                                                                     Unsupported
  Household                                                                                                           housing         Unsupported          Total
 identification                                                                                                      assistance      administrative     unsupported
    number                                                                                                           payments            fees              costs
      1938                                                              X                                                   $4,984             $293           $5,277
     1940*                X                                                                           X                          0                  0              0
     2062*                                              X                                                                        0                  0              0
     2117*                                                              X                                                        0                  0              0
     2194*                                              X               X                                                        0                  0              0
     2274*                                              X                                                                        0                  0              0
     2520*                X                                                                                                      0                  0              0
     2537*                X                                                                                                      0                  0              0
     2550*                X                                                                           X                          0                  0              0
     2865*                                              X                                                                        0                  0              0
     3055*                               X                                            X                                          0                  0              0
     3098*                X              X                                                                                       0                  0              0
     3104*                                                              X                                                        0                  0              0
     3125*                X                                                                                                      0                  0              0
      4278                               X                              X                             X                      9,413               634          10,047
     5431*                                                              X                                                        0                  0              0
     6179*                                                              X                                                        0                  0              0
     7055*                                                              X                                                        0                  0              0
     8327*                                                                                            X                          0                  0              0
     8352*                X                             X                                                                        0                  0              0
     Totals               7              3              5                8             1              4                    $14,397             $927          $15,324



* - The Authority provided documentation to support the household’s program eligibility with its
written comments, dated January 30, 2007.




                                                                                                                   38
